               The Federal, State, and Local Governments
              Office Needs Additional Information to Assess
               the Productivity of Compliance Checks and
               Assist Its Compliance and Outreach Efforts

                                    August 2004

                       Reference Number: 2004-10-145




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                           August 10, 2004


       MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                      ENTITIES DIVISION


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Federal, State, and Local Governments
                              Office Needs Additional Information to Assess the Productivity of
                              Compliance Checks and Assist Its Compliance and Outreach
                              Efforts (Audit # 200410017)


       This report presents the results of our review of the Federal, State, and Local
       Governments (FSLG) office’s compliance check process. The overall objective of this
       review was to assess the FSLG office’s processes for identifying and assigning
       compliance checks and analyzing the results to identify compliance and outreach
       needs. In Fiscal Year (FY) 2004, the FSLG office plans to achieve a better balance
       among educational activities, claims resolution, and traditional compliance work. For
       FY 2004, the FSLG Business Plan calls for increasing compliance enforcement
       activities (examinations and compliance checks) to 75 percent of available direct time,
       while reducing outreach activities to 25 percent of direct time.
       In summary, FSLG office management has implemented a process to identify and
       assign compliance check cases for review by FSLG office field personnel and is
       currently attempting to assess the productivity of their identification process. However,
       they do not have a structured process nationwide to capture and analyze the results of
       compliance check activity. As a result, FSLG office management does not know the
       effectiveness of these efforts or if these cases are identifying significant areas of
       noncompliance for future education and compliance activities.
       To assess the productivity of compliance check cases, FSLG office management
       initiated a test in January 2004 in the Gulf Coast FSLG office field group. FSLG office
       management informed us this test is in its early stages and no cases had been closed
       as of April 20, 2004. We identified two opportunities to improve the form used in this
       test to capture the results of the compliance check. These additional data will enable
                                                        2

FSLG office management to more fully assess the case identification process and
determine how to improve compliance check efforts.
Additionally, we interviewed four FSLG Area Office managers to determine the process
followed in assigning compliance check cases for review by field specialists and
identified a practice that could result in unequal taxpayer treatment. Three of the four
managers interviewed stated that they periodically request compliance check cases
from Outreach, Planning, and Review office personnel and assign them to specialists
for review as a compliance check. In contrast, one manager stated that examinations
are a better use of staff resources due to the high experience level of the staff. As a
result, this manager requested a low number of compliance check cases and indicated
that compliance check cases were frequently converted to examinations prior to case
initiation.
We recommended the Director, Government Entities, develop a structured process to
systemically track and analyze the results of compliance check cases, revise the Return
Inventory and Classification System (RICS)1 Query Sheet to separately evaluate the
productivity of each RICS query and clarify instructions for the information to be tracked,
and ensure each FSLG Area Office’s process for completing compliance check cases
results in equal taxpayer treatment.
Management’s Response: Tax Exempt and Government Entities Division management
agreed with the recommendations contained in the report. FSLG office management
will incorporate the results of compliance checks into a database to track results and
issues. FSLG office management announced a vacancy to fill a position in the
Classification unit in Austin, Texas, to analyze these data to identify trends, issues, and
opportunities for compliance, education, and guidance. FSLG office management has
also revised the RICS query evaluation process to separately evaluate the effectiveness
of each query and has clarified instructions on the RICS Query Sheet as to what
information is included in “other issues identified.” Additionally, FSLG office
management will specify that all managers must follow the same process when ordering
compliance checks and converting compliance checks to examinations in the
implementing instructions for annual workplans beginning October 1, 2004, and in all
group operational reviews begun after July 1, 2004. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




1
 The RICS contains return and filer information related to the filing and processing of Employee Plans, Exempt
Organizations, and Government Entities forms.
            The Federal, State, and Local Governments Office Needs Additional
        Information to Assess the Productivity of Compliance Checks and Assist Its
                             Compliance and Outreach Efforts




                                               Table of Contents


Background ............................................................................................... Page 1
Additional Information Should Be Captured and Analyzed
to Evaluate and Improve the Compliance Check Process......................... Page 3
         Recommendations 1 through 3: ...................................................... Page 9

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Management’s Response to the Draft Report .................... Page 13
          The Federal, State, and Local Governments Office Needs Additional
      Information to Assess the Productivity of Compliance Checks and Assist Its
                           Compliance and Outreach Efforts

                                 One of the offices in the Government Entities (GE) function
Background
                                 of the Tax Exempt and Government Entities (TE/GE)
                                 Division is the Federal, State, and Local Governments
                                 (FSLG) office. Its mission is to provide approximately
                                 87,000 Federal Government agencies, state governments,
                                 local governments, and quasi-governmental entities
                                 top-quality service by helping them understand and comply
                                 with the tax laws. The FSLG office’s interactions with its
                                 customer base affects compliance levels of the government
                                 employers as well as their 23 million employees, which is
                                 the largest single block of employees in the United States
                                 (U.S.). According to the FSLG office’s Fiscal Year (FY)
                                 2004 Workplan, these entities employ 20 percent of the U.S.
                                 workforce and pay wages in excess of $760 billion and
                                 employment taxes in excess of $200 billion annually.
                                 To accomplish its mission, the FSLG office uses a
                                 combination of educational and compliance activities to
                                 provide service to its customers. FSLG office customers are
                                 generally not subject to Federal income tax; however, these
                                 customers are generally required to file information returns
                                 and file and pay employment and excise taxes. During its
                                 initial years1 of existence, the FSLG office focused
                                 primarily on outreach to and education of its customers.
                                 The primary objective of outreach is to increase voluntary
                                 compliance by helping customers understand Internal
                                 Revenue Service (IRS) filing and reporting requirements
                                 and how to accurately and timely file tax returns and any
                                 other required returns. In FY 2003, the FSLG office
                                 allocated 60 percent of available resources to outreach
                                 activities. Examination activity during the initial startup
                                 years generally focused on limited scope audits and claims
                                 for refunds by FSLG office customers.
                                 In FY 2004, the FSLG office plans to achieve a better
                                 balance among educational activities, claims resolution, and
                                 traditional compliance work. For FY 2004, the FSLG
                                 Business Plan calls for increasing compliance enforcement
                                 activities (examinations and compliance checks) to


                                 1
                                  The FSLG office was established in FY 2000 as part of the Internal
                                 Revenue Service’s modernization process.
                                                                                                Page 1
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           75 percent of available direct time, while reducing outreach
                           activities to 25 percent of direct time.
                           The increased emphasis on compliance activities is designed
                           to create a more balanced, effective, and informed program.
                           The goals of this increased emphasis are to:
                           •   Identify significant areas of (non)compliance for future
                               education and compliance activities.
                           •   Determine the effectiveness of the FSLG office’s
                               educational efforts and their effects on compliance.
                           •   Establish a compliance presence in all FSLG office
                               market segments.
                           •   Develop baselines for future actions.
                           The FSLG office acknowledges that effective workload
                           planning for this increased emphasis is a challenge due to
                           the lack of FSLG office compliance benchmarks and
                           baseline measures. According to the FSLG office’s
                           FY 2004 Workplan, its customers have not been the subject
                           of significant research or information-gathering activity. As
                           a result, accurate and statistically valid data related to
                           compliance levels and indicators of noncompliance are not
                           available to assist FSLG office management in selecting
                           cases for review.
                           The FSLG Outreach, Planning, and Review (OPR) office is
                           responsible for the overall operational development,
                           planning, and program monitoring for the FSLG office,
                           including identifying and assigning compliance checks. A
                           compliance check is a contact with the customer that
                           involves a review of filed information and tax returns of the
                           entity to educate the taxpayer, encourage compliance and
                           self-correction, and identify customer needs. A compliance
                           check is not an examination, inspection, or discussion of
                           books and records and does not involve a determination of
                           tax liability. Additionally, the FSLG office customer may
                           legally choose not to participate in the compliance check. In
                           FYs 2002 and 2003, FSLG office specialists completed
                           36 and 690 compliance checks, respectively. The FSLG
                           office has a goal to complete 420 compliance checks in
                           FY 2004.

                                                                                  Page 2
           The Federal, State, and Local Governments Office Needs Additional
       Information to Assess the Productivity of Compliance Checks and Assist Its
                            Compliance and Outreach Efforts

                                  We conducted our audit during the period February through
                                  May 2004 at the TE/GE Division Headquarters Office in
                                  Washington, D.C., as well as the OPR and Gulf Coast Area
                                  Offices in Austin, Texas. We also contacted personnel
                                  located in FSLG offices in Pittsburgh, Pennsylvania;
                                  Rochester, New York; and Walnut Creek, California. The
                                  audit was conducted in accordance with Government
                                  Auditing Standards. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  FSLG office management has implemented a process to
Additional Information Should
                                  identify and assign compliance check cases for review by
Be Captured and Analyzed to
                                  FSLG office field personnel and is currently attempting to
Evaluate and Improve the
                                  assess the productivity of their identification process.
Compliance Check Process
                                  However, they do not have a structured process nationwide
                                  to capture and analyze the results of compliance check
                                  activity. As a result, FSLG office management does not
                                  know the effectiveness of these efforts or if these cases are
                                  identifying significant areas of noncompliance for future
                                  education and compliance activities. This analysis is vital
                                  because the primary goal of compliance checks is to educate
                                  customers about their tax filing requirements rather than to
                                  ensure compliance. As such, it is difficult to determine their
                                  specific impact on voluntary compliance. A more structured
                                  process that captures compliance check information and
                                  provides baseline measures would enable FSLG office
                                  management to conduct trend analyses and determine what
                                  impact compliance checks have on educating customers and
                                  ensuring compliance.
                                  FSLG Area Office managers provide written requests for
                                  compliance checks to OPR office personnel on a periodic
                                  basis throughout the year. OPR office personnel will
                                  perform research to identify compliance check cases based
                                  on the requests, provide the cases to the Area Office
                                  managers, and update their inventory database to reflect the
                                  case assignments.
                                  OPR office personnel use the following process to identify
                                  compliance check cases for assignment to the field groups.
                                  Currently, OPR office personnel’s main source of

                                                                                         Page 3
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           compliance check cases is employment tax return
                           information. Specifically, OPR office personnel analyze the
                           Employer’s Quarterly Federal Tax Return (Form 941) data
                           maintained on the Return Inventory and Classification
                           System (RICS).2 OPR office personnel run certain
                           predefined RICS queries to identify line items that appear to
                           be outside the normal ranges when compared to other line
                           items on the Form 941. These line items include total
                           compensation, Medicare wages, and income tax withheld.
                           Based on the results of these queries, OPR office personnel
                           judgmentally prioritize cases for assignment to the field
                           based on the highest indicators of potential noncompliance.
                           The Area Office managers are responsible for assigning the
                           compliance check cases to field specialists for review and
                           providing oversight during case processing. OPR office
                           management receive a monthly status report detailing the
                           number of compliance check cases currently assigned to the
                           field groups as well as case closing data.
                           Although Form 941 compliance data on the RICS are the
                           primary emphasis for compliance check cases, the FSLG
                           office’s FY 2004 Workplan indicates that compliance check
                           cases will also address U.S. Information Return
                           (Form 1099) filing compliance issues. However, the OPR
                           office analyst responsible for identifying compliance check
                           cases stated that the Form 1099 database has not been
                           queried for approximately 2 years. According to the
                           analyst, the IRS Small Business/Self-Employed Division is
                           responsible for providing this information and has
                           experienced difficulty in extracting these data from the IRS
                           computer system. However, the responsible OPR office
                           analyst stated that Calendar Year 2002 data from the
                           Form 1099 database was expected to be provided to the
                           OPR office by May 2004.
                           Another source for compliance check cases is the Annual
                           Summary and Transmittal of U.S. Information Returns
                           (Form 1096). In May 2003, the OPR office analyst
                           developed an additional RICS query using the Form 1096


                           2
                            The RICS contains return and filer information related to the filing and
                           processing of Employee Plans, Exempt Organizations, and GE forms.
                                                                                            Page 4
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           table to identify the volume of Forms 1099 filed by an
                           entity.
                           Potential examination and outreach issues identified
                           through compliance check cases are not systemically
                           tracked
                           According to the FSLG office’s FY 2004 Workplan, the
                           results of compliance checks will be used to develop issues
                           for examination consideration and identify customer needs
                           for additional education and outreach. For example, if a
                           compliance check showed that the Form 941 contained
                           incorrect calculations because of a misunderstanding of the
                           instructions, FSLG office management could determine if
                           this was a common problem and take steps to address it
                           through clearer instructions. However, we determined that
                           FSLG office management does not currently have a
                           structured process to systemically track and analyze the
                           results. This information would enable FSLG office
                           management to use their scarce resources more productively
                           by focusing compliance check cases on the returns with the
                           highest risk of noncompliance, identifying potential issues
                           for future examination work, and addressing customer
                           education needs.
                           Based on our interviews with FSLG Area Office managers,
                           FSLG office specialists document the results of their
                           compliance check cases in the case files. Specifically,
                           issues identified may be documented in case history notes
                           and closing letters to FSLG office entities. In addition,
                           FSLG office specialists can document noncompliance issues
                           in Discrepancy Reports that could be used for future
                           follow-up actions. Although this historical information for
                           FY 2002 to date is available in the case files, it has not been
                           systemically captured in an information system to facilitate
                           any type of review and analysis.
                           FSLG office management agreed there is a need to develop
                           a process to systemically capture and analyze compliance
                           check data for future compliance and outreach activities. In
                           June 2003, a new Director of the FSLG office was selected
                           and plans to develop a process to systemically capture and
                           analyze compliance check data for future compliance and
                           outreach activities. The new Director, however, has been
                                                                                   Page 5
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           focusing on other higher priorities, such as identifying the
                           customer base, developing examination guidelines, initiating
                           a market segment strategy, and addressing continued
                           understaffing, which have limited FSLG office
                           management’s efforts to begin developing this structured
                           process.
                           Although FSLG office management has other priorities and
                           limited resources, this type of structured process will enable
                           FSLG office management to increase productivity by
                           focusing on key areas of noncompliance and targeting
                           outreach and examination activities.
                           The usefulness of the Gulf Coast RICS test can be
                           improved by tracking additional information
                           To assess the productivity of compliance check cases, FSLG
                           office management initiated a test in January 2004 in the
                           Gulf Coast FSLG office field group. FSLG office
                           management stated that the purpose of the test is to assess
                           whether the RICS queries currently used to identify
                           compliance check cases are resulting in productive cases for
                           review (i.e., cases with noncompliance and/or education
                           issues).
                           FSLG office management informed us this test is in its early
                           stages and no cases had been closed as of April 20, 2004.
                           We identified two opportunities to improve the form used to
                           capture the results of the compliance check cases. These
                           additional data will enable FSLG office management to
                           more fully assess the case identification process and
                           determine how to improve compliance check efforts.
                           The Gulf Coast field group is currently the only FSLG
                           office field group participating in this test. The process used
                           to identify, assign, and work these cases is the same as that
                           used in the other field groups. The difference is that OPR
                           office personnel prepare a unique case survey sheet (RICS
                           Query Survey) for each test case3 that identifies the RICS
                           query/queries used for case identification. The FSLG office
                           field specialist is required to complete the sheet upon case


                           3
                             Cases that have been opened and closed after January 1, 2004, are
                           included in the test.
                                                                                           Page 6
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           closing to assess the productivity of the query/queries
                           (i.e., to indicate whether the query identified an area of
                           noncompliance) and to document if other compliance
                           action, such as an examination, is necessary to determine if
                           the customer is in compliance. OPR office personnel input
                           data from this sheet to a Microsoft Access® database for
                           tracking and analysis purposes. The types of data input
                           include the RICS queries used to identify the case; the
                           results of the compliance check; the specialists’ feedback
                           about the productivity of the RICS queries; and other
                           miscellaneous comments. Depending upon the success of
                           the test, FSLG office management stated that they might
                           require all field personnel to complete the case survey sheet.
                           Our interviews with the applicable OPR office personnel
                           responsible for conducting the RICS research indicated that
                           one or more RICS queries could be the primary source of
                           the case identification. For example, a case could be
                           generated based on two different queries that were outside
                           the acceptable ranges. The case survey sheet would show a
                           check mark for these two queries that would alert the field
                           specialist about the two areas needing a compliance check.
                           However, in this example, the survey sheet currently only
                           allows for a single check box to evaluate the productivity of
                           both RICS queries, not whether each query was productive.
                           To assess the productivity of each RICS query, the FSLG
                           office specialist should complete a separate check box so the
                           results for each RICS query can be tracked.
                           In addition, we believe guidelines for completing the survey
                           sheet can be clarified to enable the FSLG office to capture
                           the information needed to determine future compliance and
                           outreach needs of customers. The survey sheet currently
                           includes a line item (“other issues identified”) that could
                           provide the field specialists an opportunity to record
                           miscellaneous comments, such as the specific reasons for an
                           entity’s noncompliance with tax filing and/or reporting
                           requirements, as well as issues identified. General
                           instructions about how the survey sheet should be
                           implemented were communicated in an email sent to the
                           Gulf Coast Area Office manager. However, the instructions
                           for preparing the survey sheet do not discuss the purpose of
                           this line item. Our interviews with FSLG office personnel
                                                                                  Page 7
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           identified differences in the information that could be
                           captured in this line item. As a result, information may not
                           be consistently captured for all cases.
                           By ensuring this additional information is captured, FSLG
                           office management will have more complete information
                           about the productivity of the various RICS queries and will
                           be better able to make an informed business decision
                           regarding how to focus compliance check cases as well as
                           future compliance and education activities.
                           Inconsistencies in how field personnel conduct
                           compliance checks could result in unequal treatment of
                           taxpayers
                           We interviewed four FSLG Area Office managers to
                           determine the process followed in assigning compliance
                           check cases for review by field specialists and identified a
                           practice that could result in unequal taxpayer treatment.
                           Three of the four managers interviewed stated that they
                           periodically request compliance check cases from OPR
                           office personnel and assign them to specialists for review as
                           a compliance check. In contrast, one manager stated that
                           examinations are a better use of staff resources due to the
                           high experience level of the staff. As a result, this manager
                           requested a low number of compliance check cases and
                           indicated that compliance check cases were frequently
                           converted to examinations prior to case initiation.
                           TE/GE Division procedures allow field specialists to
                           convert a compliance check to an examination after
                           initiating the case, if warranted. However, as stated earlier,
                           examinations are not conducted in the same manner as
                           compliance checks. Unlike in the examination process,
                           FSLG office customers have an option not to participate in a
                           compliance check. Further, FSLG office specialists do not
                           assess additional tax liabilities as a result of a compliance
                           check case.
                           As a result of this inconsistent practice, we believe the
                           potential exists for unequal taxpayer treatment. Therefore,
                           FSLG office management should reevaluate this practice.



                                                                                  Page 8
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                           Recommendations

                           To improve the productivity of compliance checks and
                           better enable the FSLG office to achieve its goals, the
                           Director, GE, should:
                           1. Develop a structured process to systemically track and
                              analyze the results of compliance check cases to identify
                              significant areas of noncompliance for future education
                              and compliance activities.
                           Management’s Response: FSLG office management will
                           track the results and issues relating to compliance checks in
                           a database. FSLG office management announced a vacancy
                           to fill a position in the Classification unit in Austin, Texas,
                           to analyze these data to identify trends, issues, and
                           opportunities for compliance, education, and guidance.
                           2. Revise the RICS Query Sheet to separately evaluate the
                              productivity of each RICS query and clarify instructions
                              for the information to include on the “other issues
                              identified” line item.
                           Management’s Response: FSLG office management has
                           revised the RICS query evaluation process to separately
                           evaluate the effectiveness of each query and has clarified
                           instructions on the RICS Query Sheet as to what
                           information is included in “other issues identified.”
                           3. Ensure each FSLG Area Office’s process for completing
                              compliance check cases is resulting in equal taxpayer
                              treatment.
                           Management’s Response: FSLG office management will
                           specify that all managers must follow the same process
                           when ordering compliance checks and converting
                           compliance checks to examinations in the implementing
                           instructions for annual workplans beginning
                           October 1, 2004, and in all group operational reviews begun
                           after July 1, 2004.




                                                                                   Page 9
           The Federal, State, and Local Governments Office Needs Additional
       Information to Assess the Productivity of Compliance Checks and Assist Its
                            Compliance and Outreach Efforts

                                                                                   Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the Federal, State, and Local Governments
(FSLG) office’s processes for identifying and assigning compliance checks and analyzing the
results to identify compliance and outreach needs. To accomplish our objective, we:
I.     Determined if FSLG office management is providing adequate oversight to FSLG office
       compliance checks.
       A. Interviewed responsible FSLG office management to identify their roles and degrees
          of oversight provided for compliance checks.
       B. Determined if the FSLG office has established any measures assessing the impact of
          compliance check cases on the compliance of FSLG office entities.
       C. Determined if an Action Plan was developed for identifying and assigning
          compliance checks and monitoring the results of FSLG office compliance checks.
II.    Assessed the process followed by FSLG office management to identify, prioritize, and
       assign compliance checks.
       A. Interviewed Outreach, Planning, and Review (OPR) office personnel, reviewed
          documentation to determine the adequacy of sources used to identify potential
          compliance check cases, and determined the frequency of queries performed during
          the period October 1, 2002, through December 31, 2003.
       B. Interviewed OPR and FSLG office field personnel to determine the process for
          prioritizing and assigning compliance checks.
III.   Assessed the process followed by FSLG office management to identify compliance and
       outreach needs based on the results of compliance checks.
       A. Obtained any statistics showing the number of compliance check cases identified, the
          number of cases worked, and the results of compliance checks.
       B. Ascertained if the results of FSLG office compliance checks are tracked and analyzed
          effectively to identify compliance and outreach needs.




                                                                                        Page 10
           The Federal, State, and Local Governments Office Needs Additional
       Information to Assess the Productivity of Compliance Checks and Assist Its
                            Compliance and Outreach Efforts

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy Nakamura, Director
Jeffrey M. Jones, Audit Manager
Margaret Anketell, Lead Auditor
Deadra English, Senior Auditor
Michael McGovern, Auditor




                                                                                      Page 11
           The Federal, State, and Local Governments Office Needs Additional
       Information to Assess the Productivity of Compliance Checks and Assist Its
                            Compliance and Outreach Efforts

                                                                               Appendix III


                                 Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Communications and Liaison, Tax Exempt and Government Entities Division
SE:T:CL
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Office of Federal, State, and Local Governments, Tax Exempt and Government Entities
Division SE:T:GE:FSL
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M




                                                                                     Page 12
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts

                                                                   Appendix IV


             Management’s Response to the Draft Report




                                                                         Page 13
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts




                                                                         Page 14
    The Federal, State, and Local Governments Office Needs Additional
Information to Assess the Productivity of Compliance Checks and Assist Its
                     Compliance and Outreach Efforts




                                                                         Page 15
